                  The Effectiveness of the Kiosk Program
                          Cannot Be Determined

                                   August 2004

                       Reference Number: 2004-40-151




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                     August 26, 2004


      \MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION




      FROM:                         (for) Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Effectiveness of the Kiosk Program
                                    Cannot Be Determined (Audit # 200440022)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      Kiosk1 Program. The overall objective of this review was to determine whether the
      Kiosk Program provides effective customer service to taxpayers.
      The IRS introduced the Kiosk Program in 1998 with seven kiosks located in three
      states. The Program has since expanded to 382 kiosks located in 20 states. Locations
      of the kiosks include Taxpayer Assistance Centers (TAC),3 post offices, Federal and
      state offices, libraries, and a mini-mall. The Kiosk Program is part of the IRS’ efforts to
      broaden its use of electronic interactions by providing more education and assistance
      through convenient, easy to use self-assistance channels.
      The current goal of the Kiosk Program is to provide taxpayers with an alternative
      method of obtaining Federal and state tax forms and answers to frequently asked tax
      questions in English and Spanish. The IRS’ vision for the future of the Kiosk Program is
      to provide taxpayers with the ability to self-sufficiently resolve their own tax needs and
      decrease the need for taxpayers to seek live assistance from the IRS at TACs. This
      would allow the IRS to refocus resources from the traditional prefiling work of assisting
      taxpayers at the TACs to providing face-to-face assistance to taxpayers with
      compliance issues.



      1
        Kiosks consist of a Computer Processing Unit, touch-screen monitor, and printer.
      2
        One kiosk, purchased January 2004, is still in a warehouse because a determination has yet to be made on its
      placement.
      3
        The TACs are IRS field offices offering taxpayers face-to-face tax assistance.
                                                           2

The IRS cannot determine whether the Kiosk Program provides effective customer
service or is cost-effective because of insufficient internal controls and management
oversight. Although the Kiosk Program has been in place since 1998, the IRS has yet
to develop guidelines or processes to efficiently and effectively monitor the Program.
For example, internal controls to ensure the Program is operating as intended have not
been developed. In addition, processes have not been developed to:
•      Measure whether the Kiosk Program is meeting its goal of providing taxpayers with
       the ability to self-sufficiently resolve tax issues.
•      Ensure information provided on kiosks is current, accurate, and consistent.
•      Ensure kiosks are placed in the most optimal locations.
•      Educate taxpayers on the benefits and location of the kiosks.
The Kiosk Program plays an integral role in the IRS’ future concept of self-assistance
customer service. To date, the IRS has spent approximately $685,900 to purchase,
update, and maintain kiosks without the ability to ensure taxpayers or the IRS have
benefited from these expenditures. During the review, results were shared with IRS
management. In response, management initiated discussions with responsible kiosk
vendors and internal stakeholders to begin to address the concerns raised and to obtain
suggestions for improving and enhancing the Program.
However, additional actions are needed to ensure the Kiosk Program provides effective
customer service. We recommended the Commissioner, Wage and Investment
Division, develop guidelines and strategies to enable the efficient and effective
monitoring of the Kiosk Program. Processes need to be developed to monitor taxpayer
usage and satisfaction; ensure information is current, accurate, and consistent; monitor
kiosk functionality; optimally place kiosks; and educate taxpayers on the benefits and
locations of kiosks.
Management’s Response: IRS management is pleased we acknowledged the critical
role the Kiosk Program plays in the IRS’ future concept of self-assistance customer
service. They recognize improvements are needed in the Program and agree with our
recommendations. Corrective actions will include:
•      Developing guidelines for analyzing kiosk information to identify trends, issues, and
       areas needing improvement.
•      Installing the Customer Satisfaction Survey on all kiosks and using survey results to
       identify additional services or information needed.
•      Requiring annual certification that the information on the kiosks is current and
       accurate.
•      Using the Service Delivery Model (SDM)4 to determine the optimal location of kiosks.



4
    The SDM provides data regarding where IRS services are located in relation to where taxpayers live.
                                          3

•   Developing a communication plan to educate taxpayers on the benefits and
    locations of kiosks.
Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                  The Effectiveness of the Kiosk Program Cannot Be Determined




                                                  Table of Contents


Background ............................................................................................... Page 1
Controls or Processes to Efficiently and Effectively Monitor the
Program Have Not Been Developed ......................................................... Page 2
         Recommendation 1: .........................................................................Page 6
         Recommendation 2: .........................................................................Page 7

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 8
Appendix II – Major Contributors to This Report ....................................... Page 10
Appendix III – Report Distribution List ....................................................... Page 11
Appendix IV – Outcome Measures............................................................ Page 12
Appendix V – Kiosk Locations by State..................................................... Page 14
Appendix VI – Management’s Response to the Draft Report .................... Page 15
             The Effectiveness of the Kiosk Program Cannot Be Determined

                                The Internal Revenue Service (IRS) introduced the Kiosk1
Background
                                Program in 1998 with seven kiosks located in three states.
                                The Program has since expanded to 38 kiosks located in
                                20 states.2 (See Appendix V for the specific states where
                                kiosks are located.) Locations of the kiosks include
                                Taxpayer Assistance Centers (TAC),3 post offices, Federal
                                and state offices, libraries, and a mini-mall.
                                The Kiosk Program is part of the IRS’ efforts to broaden its
                                use of electronic interactions by providing more education
                                and assistance through convenient, easy to use
                                self-assistance channels. The current goal of the Kiosk
                                Program is to provide taxpayers with an alternative method
                                of obtaining Federal and state tax forms and answers to
                                frequently asked tax questions. This assistance is also to be
                                provided in Spanish. The IRS’ vision for the future of the
                                Kiosk Program is to provide taxpayers with the ability to
                                self-sufficiently resolve their own tax needs and decrease
                                the need for taxpayers to seek live assistance from the IRS
                                at TACs. This is to be accomplished by providing more
                                kiosk locations in both staffed and virtual TACs,4 as well as
                                storefronts. Providing taxpayers with the ability to
                                self-sufficiently resolve their own tax needs will then allow
                                the IRS to refocus resources from the traditional prefiling
                                work of assisting taxpayers at the TACs to providing
                                face-to-face assistance to taxpayers with compliance issues.
                                The IRS has contracts with outside vendors to purchase the
                                kiosks, including the computer hardware and software that
                                run the kiosks. Once the kiosks are purchased and placed,
                                the vendors assist the IRS in performing informational
                                updates and capturing data on usage and maintenance.
                                This review was performed at the IRS Customer Assistance,
                                Relationships, and Education function in the Wage and
                                Investment Division Headquarters in Atlanta, Georgia, with
                                visits to the following sites where kiosks are located:


                                1
                                  Kiosks consist of a Computer Processing Unit, touch-screen monitor,
                                and printer.
                                2
                                  One kiosk, purchased January 2004, is still in a warehouse because a
                                determination has yet to be made on its placement.
                                3
                                  The TACs are IRS field offices offering taxpayers face-to-face tax
                                assistance.
                                4
                                  Virtual TACs offer taxpayers technology that enables face-to-face
                                assistance using video-conferencing capability.
                                                                                                Page 1
             The Effectiveness of the Kiosk Program Cannot Be Determined

                                El Segundo, California; Hartford and
                                Waterbury, Connecticut; Edison, New Jersey; and
                                Columbus, Ohio, during the period February through
                                May 2004. The audit was conducted in accordance with
                                Government Auditing Standards. Detailed information on
                                our audit objective, scope, and methodology is presented in
                                Appendix I. Major contributors to the report are listed in
                                Appendix II.
                                The IRS cannot determine whether the Kiosk Program
Controls or Processes to
                                provides effective customer service or is cost-effective
Efficiently and Effectively
                                because of insufficient internal controls and management
Monitor the Program Have Not
                                oversight. Although the Kiosk Program has been in place
Been Developed
                                since 1998, the IRS has yet to develop guidelines or
                                processes to efficiently and effectively monitor the Program.
                                No system of internal controls exists to ensure the Kiosk
                                Program is operating as intended and meeting its goals
                                and objectives
                                There are no documented internal controls, guidelines,
                                policies, or procedures for the Kiosk Program to measure
                                and monitor whether the Program is meeting its goal of
                                providing effective customer service. For example,
                                balanced measures and performance goals have not been
                                established, an analysis has not been performed to determine
                                if the costs expended equate to the customer service benefit
                                provided to taxpayers, and a strategy has not been
                                developed outlining long-term goals as well as the measures
                                to be used to determine whether the goals are being met.
                                No process exists to monitor kiosk usage and taxpayer
                                satisfaction
                                Although kiosks have the ability to capture data on both
                                taxpayer usage and taxpayer satisfaction, the IRS does not
                                currently analyze these data to identify trends or areas for
                                improvement. Each kiosk has software provided by the
                                vendor that tabulates usage characteristics including
                                language, tax form viewed, and Frequently Asked Questions
                                (FAQ) viewed or printed. In addition, some but not all
                                kiosks contain a survey to capture information on the
                                taxpayers’ experiences using the kiosks. The IRS was
                                aware of this capability but has not used the data to monitor
                                the Program.


                                                                                      Page 2
The Effectiveness of the Kiosk Program Cannot Be Determined

                   No process exists to ensure information provided on
                   kiosks is current, accurate, or consistent
                   Visits to the five kiosks sampled5 identified that the
                   information provided on them was not current or accurate.
                   In addition, the information was not consistent from kiosk to
                   kiosk. For example:
                   •   One kiosk inaccurately stated the Federal tax return
                       filing deadline as April 17, 2004, instead of
                       April 15, 2004.
                   •   One kiosk provided FAQs only in English, even though
                       the IRS is required to provide them in Spanish. Based
                       on discussions with the vendor, this condition exists on
                       22 (58 percent) of the 38 kiosks nationwide. Executive
                       Order 13166, Improving Access to Services for Persons
                       With Limited English Proficiency (LEP),6 was put in
                       place to ensure the programs and activities that Federal
                       Government agencies normally provide in English are
                       accessible to the LEP population. However, the IRS has
                       not ensured all kiosks provide information in languages
                       to meet the needs of the LEP population.
                   •   One kiosk had outdated FAQs. The FAQs available
                       related to tax law for Tax Year 2001 rather than for the
                       current Tax Year 2003. Based on discussions with the
                       vendor, this condition exists on 22 (58 percent) of the
                       38 kiosks nationwide.
                   Because the kiosks are stand-alone and not networked or
                   connected to the Internet, manual updates are required.
                   IRS management stated that the vendors responsible for
                   maintaining the kiosks were also responsible for performing
                   these updates. However, there is no guidance on performing
                   updates or controls for the IRS to ensure the kiosks are
                   being timely updated with the same accurate information.
                   In addition, one kiosk sampled was found not to be
                   operating. Management was unaware the kiosk was not
                   functioning. There was no internal process to monitor kiosk


                   5
                    We visited 5 of the 38 kiosks the IRS had listed in inventory.
                   6
                    Executive Order 13166, Improving Access to Services for Persons
                   With Limited English Proficiency, signed by President Clinton on
                   August 11, 2000.
                                                                                Page 3
The Effectiveness of the Kiosk Program Cannot Be Determined

                   functionality or an external process for taxpayers to report
                   problems with a kiosk.
                   No process exists to ensure kiosks are placed in the most
                   optimal locations
                   Since the establishment of the Kiosk Program, placement
                   has been based on criteria established at the time the kiosks
                   were purchased. Some kiosks are located in areas that no
                   longer meet current coverage goals. For example:
                   •   From 1998 to 1999, kiosks were placed in the TACs to
                       reduce wait times. Thirteen kiosks are currently
                       colocated with TACs or an IRS field office.
                   •   From 2001 to 2003, kiosks were placed in locations
                       based on recommendations of the IRS’ design teams.
                       The design teams recommended 49 kiosks be placed in
                       21 states.
                   •   Current placement of kiosks is based on a model that
                       targets geographic areas in an attempt to provide
                       85 percent7 of taxpayers that file a tax return within a
                       geographic area with the ability to obtain customer
                       assistance within a 45-minute commute. Several kiosks
                       are placed in areas where the service delivery exceeds
                       85 percent and may no longer be necessary.
                   Additionally, placement of kiosks has not involved internal
                   stakeholders such as the Multilingual Initiative Project and
                   the Stakeholder Partnerships, Education, and
                   Communication Offices, both of which are instrumental in
                   delivering customer service to underserved segments of the
                   taxpaying public. One kiosk the IRS purchased has been in
                   a warehouse since January 2004 because a determination
                   has yet to be made on its placement.
                   Further, the IRS has not developed a strategy to identify
                   locations for future placement of kiosks. No budgetary
                   commitments have been made outlining anticipated growth
                   in the Program. Instead, kiosks are purchased at the end of
                   the fiscal year with excess funds and the IRS then attempts
                   to identify a location for placement.

                   7
                     The coverage percentage is the number of filers in a geographic
                   location within a 45-minute commute of a service delivery location.
                   The model is called the Service Delivery Model.
                                                                                   Page 4
The Effectiveness of the Kiosk Program Cannot Be Determined

                   No process exists to educate taxpayers on the benefits
                   and locations of the kiosks
                   The only vehicle that educates taxpayers about the IRS
                   Kiosk Program and kiosk locations is on the IRS web site
                   (IRS.gov) in English but not in Spanish. This information is
                   not always current. As of April 1, 2004, the IRS had
                   expanded service to include 38 kiosks in 20 states, but as of
                   April 16, 2004, the web site provided information on only
                   30 kiosks.
                   IRS.gov may not be the most effective method to educate
                   taxpayers about kiosks since the information on kiosks is
                   the same information available on IRS.gov. If taxpayers
                   have access to IRS.gov to find a kiosk, they would not need
                   to use the services a kiosk offers.
                   Insufficient internal controls and managerial oversight
                   resulted in inefficient use of IRS resources
                   Inadequate management oversight, including insufficient
                   internal controls, policies, and procedures, have resulted in
                   the inability of the IRS to ensure the Kiosk Program is
                   meeting its goal of providing an alternative method for
                   taxpayers to seek customer service. If management does not
                   improve oversight and internal controls, there is a risk that
                   the IRS’ vision for the future of the Kiosk Program will not
                   be met.
                   The Government Accountability Office (formerly the
                   General Accounting Office) Standards of Internal Controls
                   in the Federal Government8 state that internal controls are a
                   major part of managing an organization. They comprise the
                   plans, methods, and procedures used to meet missions,
                   goals, and objectives.
                   To date, the IRS has spent approximately $685,900 to
                   purchase, update, and maintain kiosks without the ability to
                   ensure taxpayers or the IRS have benefited from these
                   expenditures. The IRS estimates that 54 million taxpayers
                   reside in the states where kiosks are located. Without
                   ensuring the information provided is useful, the IRS may be
                   increasing taxpayer burden should taxpayers rely on
                   inaccurate information.

                   8
                    Standards of Internal Controls in the Federal Government
                   (GAO/AIMD-00-21.3.1 dated November 1999).
                                                                               Page 5
The Effectiveness of the Kiosk Program Cannot Be Determined

                   As the IRS moves forward in developing the necessary
                   processes to effectively and efficiently monitor its
                   Kiosk Program, it might refer to the Department of Housing
                   and Urban Development (HUD) as a best practice on the use
                   of kiosks. The HUD has demonstrated the ability to deliver
                   effective customer service by placing web-based kiosks in
                   public areas nationwide to provide information on a
                   24 hour/7 day a week basis to citizens who do not have
                   access to the Internet. The HUD’s web-based kiosks are
                   networked and Internet-enabled, allowing the kiosks to be
                   updated quickly and easily, and keeping them consistent
                   with the HUD web site. All content is printable and
                   available in both English and Spanish. The HUD’s kiosks
                   have been recognized with the prestigious “Pioneer Award”
                   by e-Gov and with the Excellence in Government Award.
                   During the review, results were shared with IRS
                   management. In response, management initiated
                   discussions with responsible kiosk vendors and internal
                   stakeholders to begin to address the concerns raised and to
                   obtain suggestions for improving and enhancing the
                   Program. However, additional actions are needed to ensure
                   the Kiosk Program provides effective customer service.

                   Recommendations

                   The Commissioner, Wage and Investment Division, should:
                   1. Develop guidelines and strategies to enable the efficient
                      and effective oversight of the Kiosk Program including
                      processes to:
                       a. Monitor kiosk usage and taxpayer satisfaction to
                          ensure the Kiosk Program is meeting its goals.
                       b. Ensure the information provided on kiosks is
                          current, accurate, and consistent.
                       c. Monitor kiosk functionality including enabling
                          taxpayers to report problems with kiosks.
                       d. Ensure kiosks are placed in the most optimal
                          locations, including coordination with key internal
                          stakeholders.



                                                                         Page 6
The Effectiveness of the Kiosk Program Cannot Be Determined

                   Management’s Response: IRS management agreed with
                   this recommendation and will take the following corrective
                   actions:
                   •   Develop guidelines for analyzing usage reports and
                       other information on the kiosks to identify trends, issues,
                       and areas needing improvement.
                   •   Install the Customer Satisfaction Survey on all kiosks
                       and use the survey results to identify additional services
                       or information needed to help taxpayers meet their tax
                       obligations.
                   •   Develop a Kiosk Checklist requiring field personnel to
                       certify annually that the information on the kiosks is
                       current and accurate.
                   •   Develop a standardized operational review guide for the
                       Kiosk Program to ensure consistency in the review
                       process.
                   •   Use the Service Delivery Model (SDM) to determine the
                       optimal location of kiosks. The SDM provides data on
                       where IRS services are located in relation to where
                       taxpayers live.
                   2. Develop a process to educate taxpayers on the benefits
                      of the Kiosk Program, including the locations of kiosks.
                   Management’s Response: IRS management agreed with
                   this recommendation and will determine the feasibility of
                   expanding access to IRS information using HUD kiosks,
                   develop a communication plan to educate taxpayers on the
                   benefits and locations of kiosks, and ensure information on
                   the kiosks meets the needs of taxpayers who do not speak
                   English.




                                                                           Page 7
                 The Effectiveness of the Kiosk Program Cannot Be Determined

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Kiosk1 Program provides
effective customer service for taxpayers. To accomplish this objective, we:
I. Determined whether the goals and strategies of the Kiosk Program agree with the goals and
   strategies of the Internal Revenue Service (IRS) and the Wage and Investment Division and
   whether the IRS has an effective method to monitor the Program.
    A. Obtained and reviewed IRS guidance and documentation to identify the intended benefits
       of the Kiosk Program for both taxpayers and the IRS and held discussions with
       management to determine whether these benefits are being realized.
    B. Obtained any reports or documentation on the Kiosk Program (e.g., documents showing
       how the IRS tracks the expenses, provides oversight, and measures progress and success).
II. Determined whether the information provided on kiosks is current, accurate, and consistent.
    A. Determined whether the IRS has an effective process to ensure information contained on
       kiosks is current, accurate, and consistent. We interviewed vendors to verify the process.
    B. Selected a judgmental sample of 5 of 382 kiosk locations in California, Connecticut,
       New Jersey, and Ohio to review the information contained on the kiosks to determine
       whether the information was current, accurate, and consistent among kiosks. We selected
       the El Segundo, California; Edison, New Jersey; and Columbus, Ohio, kiosk locations
       because we were able to perform the test while performing an audit test for another
       ongoing audit. We selected the Hartford and Waterbury, Connecticut, kiosk locations
       because of their proximity to our Andover Office.
    C. If the kiosks were found to contain information that was not current, accurate, and
       consistent, determined why and attempted to assess the effect(s) on taxpayers and the
       IRS.
III. Determined whether the IRS effectively captures usage and measures taxpayer satisfaction
     with the Kiosk Program by holding discussions with management.




1
 Kiosks consist of a Computer Processing Unit, touch-screen monitor, and printer.
2
 One kiosk, purchased January 2004, is still in a warehouse because a determination has yet to be made on its
placement.




                                                                                                          Page 8
              The Effectiveness of the Kiosk Program Cannot Be Determined

IV. Determined whether the IRS places kiosks in the most optimal locations and educates
    taxpayers on their benefits and locations by holding discussions with management, locating
    kiosks, and determining the accuracy of management information.
V. Determined the effect(s) on taxpayers and the IRS.




                                                                                        Page 9
              The Effectiveness of the Kiosk Program Cannot Be Determined

                                                                                Appendix II


                           Major Contributors to This Report

Michael Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Randee Cook, Director
Russell Martin, Audit Manager
Grace Terranova, Lead Auditor
Jean Bell, Auditor




                                                                                      Page 10
             The Effectiveness of the Kiosk Program Cannot Be Determined

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Resources Management SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance SE:W:CAR:FA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 11
                    The Effectiveness of the Kiosk Program Cannot Be Determined

                                                                                       Appendix IV


                                              Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•      Inefficient Use of Resources – Actual; approximately $685,900 in purchase, update, and
       maintenance costs for kiosks1 (see page 2).
Methodology Used to Measure the Reported Benefit:
We analyzed the Kiosk Investment Template provided by Field Assistance office management
detailing the purchase costs and dates, along with annual maintenance costs, for the 38 kiosks
purchased since 1998.
We determined the cost to purchase 38 kiosks since 1998 to be over $465,600 as follows:
•      We determined the number of kiosks purchased each year:
       o 7 kiosks purchased in 1998:
         $8,000/kiosk x 6 kiosks = $48,000
         $13,895 x 1 kiosk = $13,895
         $48,000 + $13,895 = $61,895
       o 8 kiosks purchased in 1999:
         $11,233/kiosk x 1 kiosk = $11,233
         $11,250/ kiosk x 4 kiosks = $45,000
         $12,358/ kiosk x 2 kiosks = $24,716
         $12,900/ kiosk x 1 kiosk = $12,900
         $11,233 + $45,000 + $24,716 + $12,900 = $93,849
       o 7 kiosks purchased in 2001: $13,520/kiosk x 7 kiosks = $94,640
       o 16 kiosks purchased in 2003: $13,454.38/kiosk x 16 kiosks = $215,270.08
$61,895 + $93,849 + $94,640 + $215,270.08 = $465,654.08




1
    Kiosks consist of a Computer Processing Unit, touch-screen monitor, and printer.
                                                                                            Page 12
              The Effectiveness of the Kiosk Program Cannot Be Determined

We determined the update and maintenance costs of the kiosks since 1998 to be over $220,200
based on the following:
•   We determined the number of years each kiosk has been owned by the IRS. We subtracted
    the 1-year service agreement to determine the number of years the IRS paid for upgrades and
    maintenance. We then multiplied these years by the annual flat rate maintenance and
    upgrade cost per kiosk by vendor as provided by the IRS.
    o 7 kiosks purchased in 1998: 5 years paid at $2,622/year = $13,110
      $13,110 x 7 kiosks = $91,770
    o 8 kiosks purchased in 1999: 4 years paid at $2,622/year = $10,488
      $10,488 x 8 kiosks = $83,904
    o 7 kiosks purchased in 2001: 2 years paid at $3,181.43 = $6,362.86
      $6,362.86 x 7 kiosks = $44,540.02
    o 16 kiosks purchased in 2003: 0 years paid
$91,770 + $83,904 + $44,540.02 + $0 = $220,214.02
We determined the combined purchase, update, and maintenance costs since 1998 to be
approximately $685,900 ($465,654.08 + $220,214.02 = $685,868.10).




                                                                                        Page 13
              The Effectiveness of the Kiosk Program Cannot Be Determined

                                                                                  Appendix V


                                 Kiosk Locations by State




Kiosks are located in the following cities and states: Akron, Ohio; Beckley, West Virginia;
Bethel, Alaska; Brooklyn, New York; Butte, Montana; Cheektowaga (Buffalo), New York;
Chicago, Illinois; Cincinnati, Ohio; Columbus, Ohio; Dallas, Texas; Dayton, Ohio;
Dubuque, Iowa; Edison, New Jersey; El Segundo, California; Fairview Heights, Illinois;
Flushing (Queens), New York; Galveston, Texas; Gillette, Wyoming; Grantsville, Georgia;
Hartford, Connecticut; Heber Spring, Arkansas; Juneau, Alaska; Key West, Florida;
Lansing, Michigan; Manchester, Tennessee; McAllen, Texas; Miles City, Montana;
Nome, Alaska; Pierre, South Dakota; Pontiac, Michigan; Rainbow City, Alabama;
Redwood City, California; Rochester, New York; Springfield, Illinois; Syracuse, New York;
Union, Mississippi; and Waterbury, Connecticut.




                                                                                        Page 14
The Effectiveness of the Kiosk Program Cannot Be Determined

                                                          Appendix VI


      Management’s Response to the Draft Report




                                                               Page 15
The Effectiveness of the Kiosk Program Cannot Be Determined




                                                              Page 16
The Effectiveness of the Kiosk Program Cannot Be Determined




                                                              Page 17
The Effectiveness of the Kiosk Program Cannot Be Determined




                                                              Page 18
The Effectiveness of the Kiosk Program Cannot Be Determined




                                                              Page 19
